OIG Investigative Reports,Washington. DC June 10, 2013 - Former Accounting Employee Pleads Guilty To Stealing More Than $75,000 From Charter School
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
THE UNITED STATES ATTORNEY'S OFFICE
District of Columbia
NEWS
FOR IMMEDIATE RELEASE
Monday, June 10, 2013
For Information Contact:
Public Affairs
(202) 252-6933
http://www.justice.gov/usao/dc/index.html
Former Accounting Employee Pleads Guilty To Stealing More Than $75,000 From Charter School
-Temporary Worker Issued and Cashed Checks to Fictitious Vendors-
WASHINGTON - Darlene Ford, 46, of Temple Hills, Md., pled guilty today to a federal charge stemming from the theft of more than $75,000 from a charter school where she worked as a temporary accounting employee.
The guilty plea was announced by U.S. Attorney Ronald C. Machen Jr., Valerie Parlave, Assistant Director in Charge of the FBI's Washington Field Office, Cathy L. Lanier, Chief of the Metropolitan Police Department, and Steven Anderson, Special Agent in Charge of the U.S. Department of Education Office of Inspector General's Mid-Atlantic Region.
Ford pled guilty in the U.S. District Court for the District of Columbia to a charge of theft from a program receiving federal funds. The Honorable Robert L. Wilkins scheduled sentencing for Sept. 16, 2013. The charge carries a statutory maximum of 10 years in prison and financial penalties. Under federal sentencing guidelines, the parties have agreed that the applicable range is 12 to 18 months in prison and a fine of $3,000 to $30,000.
Under the plea agreement, Ford must pay $75,350 in restitution to the César Chávez Public Charter Schools for Public Policy. She also is subject to the forfeiture of a money judgment of the same amount.
According to the government's evidence, Ford was a temporary employee at the César Chávez Public Charter Schools for Public Policy. She was placed at the school's finance department by a temporary accounting staffing firm from January 2010 until March 2010. Her responsibilities included the processing of invoices from vendors, including presenting documents to the Director of Finance for signature on payments.
Public charter schools are independently-operated public schools that are open to all District of Columbia residents. César Chávez Public Charter Schools for Public Policy received various government funds, including funding from the U.S. Department of Education.
While in the finance department, Ford carried out her scheme by accessing the school's accounting system and changing names listed on pending checks. She replaced the names of legitimate vendors with those of fictitious vendors and then forged the signature of the Director of Finance on the checks. Ten such checks were made out to fictitious vendors, totaling $75,350. These checks were then cashed and used for the benefit of Ford and/or her friends and associates.
In announcing the guilty plea, U.S. Attorney Machen, Assistant Director in Charge Parlave, Chief Lanier, and Special Agent in Charge Anderson commended the work of those who investigated the case. They also expressed appreciation for the efforts of those who worked on the case from the U.S. Attorney's Office, including Paralegal Specialists Diane Hayes and Krishawn Graham, and Assistant U.S. Attorney Lionel André, who is prosecuting the matter.
13-198
Top
Printable view
Last Modified: 07/01/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov